<html>
<title> - ASSESSING THE SITUATION IN LIBYA</title>
<body><pre>[Senate Hearing 112-611]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-611

                    ASSESSING THE SITUATION IN LIBYA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/







                  U.S. GOVERNMENT PRINTING OFFICE

76-698 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        















                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     2
Steinberg, Hon. James B., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by the 
      following:
        Senator John F. Kerry....................................    20
        Senator Richard G. Lugar.................................    22
        Senator Mike Lee.........................................    26

                                 (iii)



 
                    ASSESSING THE SITUATION IN LIBYA

                              ----------                              


                         THURSDAY, MAY 12, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:20 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Lugar, 
Corker, Rubio, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you for coming this morning.
    We are under the gun on both sides of the aisle here. 
Senator Lugar has to go down to the White House for a meeting 
of the Republicans with the President, and I have to go down 
there for a separate meeting. So we are going to be a little 
bit compressed.
    If the hearing continues beyond the bewitching hour for 
both of us, then Senator Shaheen will chair, but it may well be 
that we can get where we need to go if we kind of move along 
here and compress everything.
    This is the fourth hearing that we have had on the question 
of Libya since the popular uprising began in February. We are 
delighted to welcome Secretary Steinberg back. He appeared last 
year on March 31 when we kind of, we thought, had congratulated 
him for becoming the Dean of the Maxwell School at Syracuse 
University and sent him off into the sunset. But we need to 
proceed forward here with Secretary Burns' nomination, which we 
are going to try and do as fast as we can. We now have the 
papers and the minute we can, we will get that hearing done, 
and I am sure we will do it expeditiously.
    The situation in Libya, while it appears sort of 
significantly stalemated, I think is different from the way it 
appears, to be honest with you. Yesterday we had the privilege 
of meeting with Mahmoud Jibril. I had previously met with him 
in Cairo and invited him to come here and meet with colleagues, 
and he had a good meeting yesterday with a lot of colleagues in 
the Senate. And I think everybody came away impressed by the 
seriousness of purpose, the articulate presentation of an 
agenda, and the commitment to democracy and to values and 
principles that I think our country could willingly and happily 
support.
    In the last hours, some progress has occurred on the 
ground, which is encouraging: the taking of the airport outside 
of Misrata and the liberating of Misrata and the airport, some 
actions in Tripoli itself. And I think Minister Jibril was, in 
fact, quite encouraging about his sense of what the 
possibilities are in the days ahead. We never know. Obviously 
there is tension in the stalemate near Brega, Jibaya, and 
central Libya.
    But I am convinced that because of the actions taken by 
NATO and by the GCC, by the Arab League, and the opposition 
themselves, I believe that the Libyan people have been given a 
fighting chance for a better future, and I think catastrophe 
was averted in Benghazi. Unlike Iraq or Afghanistan, we have 
been able to achieve what has been achieved with broad 
international support, in fact, with other NATO members really 
carrying the brunt of the load. I think there can be no denying 
that had the international community not taken action against 
Qadhafi, I think the situation in Libya would be far worse 
today. But also I think the message across the Arab world, 
across North Africa and into the Middle East, would have been 
significantly damaging to the aspirations of the Arab Spring 
and to other interests that we have.
    I think the progress that the Transitional National Council 
has made has actually been quite remarkable. In a short 3 
months, they have organized themselves. They have articulated a 
roadmap forward. Given the vision of a post-Qadhafi Libya that 
is democratic and inclusive, they have begun to develop 
institutions that can provide basic services for their people. 
They are thinking about how to deal with humanitarian aid and 
dislocation and challenges. And while some institutions are 
obviously going to have to be rebuilt from scratch over a 
period of time, I think we are in a position to provide 
technical and financial assistance, and I applaud the 
initiative announced last week by Secretary Clinton and her 
efforts with the Contact Group in Rome where they decided it 
was important to provide the Council Vice Authority with access 
to financial sources.
    We are working here in the Senate to construct and then 
pass the enabling legislation that will make it possible for 
Qadhafi's money to support the efforts of the Libyan people, 
which is what it should do in the first place.
    So, Secretary Steinberg, we are delighted to have you here 
today and thanks for taking the time to come in.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman, for holding this 
important hearing, and I join you in welcoming back Deputy 
Secretary Steinberg.
    The committee sought a witness from the Defense Department 
to join Secretary Steinberg at this hearing. The administration 
chose not to provide such a witness. This is an inexplicable 
decision given administration pledges to fully consult with 
Congress and the central role the United States military has 
played in the Libyan operation. I am hopeful that Defense 
Department witnesses will be provided at subsequent hearings on 
Libya when requested.
    Since our last Libya hearing more than a month ago, 
fighting between opposition forces and troops loyal to Muammar 
Qadhafi has continued unabated. The United States is 
participating in the coalition of nations under NATO leadership 
that is opposing the Qadhafi regime with military force. Among 
other steps, the Obama administration has initiated the process 
of providing at least $25 million in nonlethal assistance to 
the Libyan opposition and it has dedicated Predator drones to 
Libyan airspace.
    One can envision fortunate scenarios under which the 
fighting might come to an end, but a quick resolution of the 
war is not likely. Accordingly, under the War Powers Act, 
Congress could render a judgment on whether to continue U.S. 
participation in the war. At this stage, congressional leaders 
have not committed to a debate, and it is uncertain whether 
majorities could be assembled for any particular resolution.
    The President should have come to Congress seeking 
authority to wage war in Libya, and I believe that Congress and 
the American people would still benefit from a debate on this 
matter.
    Irrespective of any debate, however, the Congress and the 
American people should have answers to some very basic 
questions that the President has not addressed sufficiently.
    First, can other NATO nations fulfill the primary combat 
mission in Libya over an indefinite period, and how will the 
administration respond if allies request greater military 
involvement by the United States?
    Second, what scenarios or emergencies would cause the 
United States to reescalate its military involvement in Libya, 
and would the administration seek a congressional authorization 
if it expands its military role?
    Third, what are the administration's plans for aiding the 
Libyan opposition economically and militarily, and do we have 
confidence in the people to whom we are providing assistance?
    Fourth, what are civilian and military operations related 
to Libya costing the United States, and how much is the 
administration prepared to spend over time?
    Fifth, in the aftermath of the current civil war, what 
responsibility will the United States assume for reconstructing 
the country? There are many other questions that require an 
answer, but this set illustrates the degree to which the United 
States goals, resources, and strategies related to Libya remain 
open-ended and undefined.
    In addition, Libya operations have not been adequately 
placed in a broader strategic context. Given all that is at 
stake in Pakistan, Afghanistan, Iran, Saudi Arabia, Egypt, 
Syria, Yemen, and elsewhere in the Islamic world, a rational 
strategic assessment would never devote sizable military, 
diplomatic, economic, and alliance resources to a civil war in 
Libya. When measured against other regional problems, Libya 
appears as a military conflict in which we have let events 
determine our involvement, instead of our vital interests. It 
is an expensive diversion that leaves the United States and our 
European allies with fewer assets to respond to other 
contingencies in the region.
    I look forward to our discussion of the situation in Libya 
and related administration policies and actions.
    And I thank you, Mr. Chairman.
    The Chairman. Thanks a lot, Senator Lugar. Appreciate it.
    Secretary Steinberg, you know the routine here. If you want 
to summarize, your full testimony will be placed in the record, 
and we look forward to hearing you.

   STATEMENT OF HON. JAMES B. STEINBERG, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Steinberg. Thank you, Mr. Chairman. Thank you, Senator 
Lugar. It is a pleasure, as always, to be back.
    And I will summarize my remarks and just hit on a few of 
the key points that I would like to raise with the committee.
    Since my last appearance before you, we have, I think, made 
real progress in assembling a remarkable international 
coalition of European and Arab partners.
    On the military side, following the adoption of U.N. 
Security Council Resolution 1973, we have undertaken a clear 
but limited mission to protect the Libyan people. The United 
States offered our unique military capabilities early on and 
then turned over full command and control responsibility to a 
NATO-led coalition. Of the over 6,000 sorties flown in Libya, 
three-quarters have been flown by non-U.S. coalition partners. 
All 20 ships enforcing the arms embargo are European or 
Canadian, and the overwhelming majority of strike sorties are 
now being flown by our European allies.
    But the international community's efforts are not simply 
military. We continue to work with our partners to pursue three 
tracks on the political and economic front: pressuring and 
isolating Qadhafi, supporting the Libyan people in determining 
their own future, and delivering humanitarian aid.
    On the first, we are working to escalate the pressure, 
deepen Qadhafi's isolation, and convince those around him that 
Libya's future lies elsewhere. The international community is 
increasingly united around a shared insistence that Qadhafi 
must go. Indeed, in last week's Contact Group meeting, the 
conclusions pointedly noted that in the words of the Contact 
Group, ``Qadhafi, his family and his regime have lost all 
legitimacy. They must go so that the Libyan people can 
determine their own future.'' This coalition that have called 
on Qadhafi to go includes countries like Turkey that in the 
past have had close ties to the regime. Nations are joining us 
in expelling Qadhafi's diplomats and refusing visits from 
Qadhafi's envoys unless they are defecting or coming to discuss 
his departure.
    The clear message to Qadhafi and those around him is that 
there is no going back to the way things were. Through the U.N. 
Security Council, they now face a no-fly zone, an arms embargo, 
asset freezes, and travel bans. Libya's National Oil 
Corporation and central bank are blacklisted. The United States 
and other countries are also taking further unilateral steps to 
tighten the squeeze on regime officials and regime-affiliated 
banks, businesses, and satellite networks. This week the ICC's 
prosecutor announced that he intends to apply for arrest 
warrants for three senior officials in Qadhafi's regime who, in 
his words, ``bear the greatest criminal responsibility for 
crimes against humanity.''
    These measures are having an effect. We have deprived the 
regime of funds and assets that could be used to support 
attacks against the Libyan people. Libya used to export 1.3 
million barrels of oil per day, and that has now stopped, and 
the regime is having difficulty accessing refined petroleum. 
There are some indications that the regime can no longer afford 
to pay its supporters to attend rallies and demonstrations.
    Second, we are supporting legitimate democratic aspirations 
of the Libyan people. The last time I testified before you, you 
all raised many questions about the makeup and intentions of 
the Libyan opposition. Our envoy in Benghazi, Chris Stevens, 
has now been on the ground for several weeks and meets 
regularly with a wide range of Libyan opposition members. 
Secretary Clinton herself has met three times with Libyan 
opposition leaders and urged others to do the same. And as you 
noted, Senator Kerry, Mahmoud Jibril, who is a senior member of 
the TNC, has been in Washington consulting with Congress and 
will be meeting with us as well.
    We have continued to stress the importance of the TNC 
distancing itself from extremists who could seek to hijack the 
popular movement, and we have been pleased by the clear view of 
the TNC leadership that you yourselves heard rejecting 
extremism and calling for tolerant democracy. We welcome the 
TNC's roadmap to convene a national assembly and draft a 
constitution for post-Qadhafi Libya, and we have been 
encouraged by efforts on the TNC to strength their organization 
on the civilian and military side.
    As we have gotten to know the Libyan opposition, we have 
stepped up our support. As we notified Congress, we are 
providing up to $25 million for the provision of nonlethal 
items to the TNC, including medical supplies, boots, tents, 
rations, and personal protective gear.
    The Treasury Department has published new rules to remove 
sanctions on oil sales that will benefit the TNC, and the Libya 
Contact Group has created a new mechanism to provide 
transparent financial assistance to the opposition, to which 
Kuwait has already donated $180 million.
    And as Secretary Clinton said in Rome, and as you 
mentioned, Mr. Chairman, we also look forward to working with 
you to begin a targeted unfreezing of Libyan Government assets 
to meet pressing humanitarian needs.
    Third, we are providing more than $53 million in 
humanitarian assistance and continue to look for additional 
ways to support humanitarian operations. The international 
community as a whole has already contributed, committed $245 
million.
    Mr. Chairman, I understand the desire for quick and 
decisive results, and of course, we in the administration share 
that goal. However, I think it is important to recall how much 
has been accomplished in less than 2 months in preventing a 
humanitarian catastrophe, in rallying a remarkable political 
and military coalition, in mobilizing pressure on the Qadhafi 
regime, and working with emerging democratic forces in Libya.
    History teaches us that patience and persistence can pay 
off. We have already seen the international pressure change the 
calculation of some of Qadhafi's advisers. It is impossible to 
predict which single step will tip the balance. We recognize 
that the way forward is not easy, and so we are using as many 
tools and levers as we can to bring about our ultimate 
objective: the end of Qadhafi's rule and a new beginning for a 
peaceful, democratic Libya.
    In all this, we recognize and appreciate the critical role 
that Congress plays. Even before the President directed U.S. 
forces to participate in coalition operations, he and his 
senior advisers reached out to leading Members of the Congress, 
including this committee, and those consultations have 
continued both informally and in appearances before Congress, 
including my own.
    By April 5, the United States had successfully set the 
stage and transferred to our allies and partners the lead for 
enforcing the no-fly zone and protecting civilians on the 
ground pursuant to the U.N. Security Council resolution. As 
this operation has moved forward, our role has evolved to 
primarily a supporting one, especially as our allied partners 
have taken the lead.
    As we come closer to the second month of operations, we are 
actively reviewing our role going forward. Throughout, the 
President has been mindful of the provisions of the War Powers 
resolution and has acted in a manner consistent with it. He 
will continue to do so, and we look forward to continuing to 
consult with Congress on our role in the coming days and we 
welcome your support.
    May I just add one final point in closing? Senator Lugar, 
you raise many important questions, but I especially want to 
touch on the last, which is our strategic stakes in this 
effort.
    In addition to the very compelling humanitarian crisis that 
we faced, as I mentioned the last time we appeared, this 
operation--Senator Kerry has said as well--has implications not 
just for Libya, for the broader region. Qadhafi's efforts to 
repress and attack his own people could have enormous 
consequences for the transitions in Tunisia and Egypt which are 
incredibly important to the United States and to our long-term 
interests. And they send a signal to the rest of the world that 
we are able to work especially when called upon by the Arab 
countries in the region to take steps to try to protect the 
populations there and to make sure these kinds of efforts will 
not succeed.
    So I think as important as the stakes directly in Libya 
are, even more broadly, they do have profound consequences for 
the United States, which fully justifies the role that we have 
taken in this case.
    Thank you all, and I look forward to your questions.
    [The prepared statement of Mr. Steinberg follows:]

   Prepared Statement of Deputy Secretary of State James B. Steinberg

    I thank the Chairman and Senator Lugar for inviting me today. I 
appreciate this chance to update the committee on our efforts and 
answer your questions.
    During my last appearance, I reviewed for the committee the 
developments that led up to the international community's engagement in 
Libya. Colonel Qadhafi met the peaceful protests of his own people with 
violence. When the U.N. Security Council, the Arab League, and the 
United States all demanded that atrocities must end, Qadhafi responded 
with a promise to show ``no mercy and no pity.''
    We quickly reached two important conclusions. First, we would not 
stand by as Qadhafi brutalized his own people. Second, Qadhafi had lost 
the legitimacy to lead, and he had to go to allow the Libyan people to 
reclaim their own future.
    And so we assembled an international coalition of European and Arab 
allies with a clear, limited mission to enforce U.N. Security Council 
Resolutions 1970 and 1973 and protect the Libyan people. We offered our 
unique military capabilities early on and then turned over full command 
and control responsibility to a NATO-led coalition. Three-quarters of 
the over 6,000 sorties flown in Libya have now been by non-U.S. 
coalition partners, a share that has increased. All 20 ships enforcing 
the arms embargo are European or Canadian. And the overwhelming 
majority of strike sorties are now being flown by our European allies. 
We are proud of our continuing contribution and grateful as our allies 
increasingly carry the burden.
    As the coalition continues to carry out its best efforts to protect 
Libya's civilian population, we continue to pursue three tracks on the 
political and economic front: pressuring and isolating Qadhafi; 
supporting the Libyan people in determining their own future; and 
delivering humanitarian aid.
    First, we are working to escalate the pressure, deepen Qadhafi's 
isolation and convince those around him that Libya's future lies 
elsewhere.
    The international community is increasingly united around a shared 
insistence that Qadhafi must go. Last week's Contact Group--with the 
participation of 22 nations and representatives from the U.N., Arab 
League, NATO, EU, OIC and GCC--issued its most forceful statement yet, 
including that ``Qadhafi, his family and his regime have lost all 
legitimacy. They must go so that the Libyan people can determine their 
own future.'' Turkey, once an important partner to Qadhafi's Libya, has 
now joined the chorus of nations demanding that he leave immediately. 
The British, Italians, and French are expelling Qadhafi's diplomats, as 
we did in March. And we are urging other nations to refuse their visits 
unless Qadhafi's envoys are either defecting or coming to discuss his 
departure.
    We are taking a wide range of steps to send a clear, forceful 
message to Qadhafi and those around him that there is no going back to 
the way things were. They now face a no-fly zone, an arms embargo, 
asset freezes, and travel bans. Libya's National Oil Corporation and 
central bank are blacklisted. The United States and other countries are 
also taking further unilateral steps to tighten the squeeze on regime 
officials and regime-affiliated banks, businesses, and satellite 
networks. This week, the Prosecutor of the International Criminal Court 
announced that he intends to apply for arrest warrants for three senior 
officials in Qadhafi's regime ``who bear the greatest criminal 
responsibility for crimes against humanity.''
    These measures are having an effect. We have deprived the regime of 
funds and assets that could be used to support attacks against the 
Libyan people. Libya used to export 1.3 million barrels of oil per day. 
That has stopped, and the regime is having difficulty accessing refined 
petroleum. There are some indications that the regime can no longer 
afford to pay supporters to attend rallies and demonstrations. The 
longer international sanctions stay in place, the more the pressure 
will mount.
    Second, we are supporting the legitimate aspirations of the Libyan 
people, who deserve a successful transition to democracy just as much 
as their neighbors in Egypt and Tunisia.
    Last time I testified, there were a great many questions about the 
makeup and intentions of the Libyan opposition. Our envoy, Chris 
Stevens, has been in Benghazi for several weeks now and has held 
meetings with a wide range of Libyan opposition members, including but 
not limited to the Transitional National Council (TNC). Secretary 
Clinton has met three times with Libyan opposition leaders and urged 
others to do the same. Several of you met with TNC leader Mahmoud 
Jibirl, including Chairman Kerry, yesterday. I will host him and his 
delegation at the State Department on Friday and he will meet National 
Security Adviser Tom Donilon at the White House Friday afternoon as 
well. Though it will be important to ensure that words are matched by 
actions, we have been encouraged by the TNC's public statements on 
democracy, treatment of prisoners, human rights and terrorism. We have 
continued to stress the importance of the TNC distancing itself from 
extremists who could seek to hijack the popular movement, and we have 
been pleased by the clear view of the TNC leadership rejecting 
extremism and calling for tolerant democracy.
    As we have gotten to know the Libyan opposition, we have stepped up 
our political, financial, and nonlethal military support. As we 
notified Congress, we are providing up to $25 million for the provision 
of nonlethal items to the TNC. The carefully chosen list includes 
medical supplies, boots, tents, rations, and personal protective gear. 
The first shipment, 10,000 MREs, arrived on Tuesday.
    The TNC has also requested urgent financial assistance. The 
Treasury Department has published new rules to remove sanctions on oil 
sales that will benefit the TNC. In Rome, the Libya Contact Group 
created a Temporary Financial Mechanism to provide transparent 
financial assistance to the opposition. Kuwait has already committed to 
contribute $180 million.
    As Secretary Clinton said in Rome, we hope to work quickly with 
Congress to begin unfreezing Libyan Government assets to meet pressing 
humanitarian needs. On Wednesday, we continued our consultations with 
Congress and shared our proposal. The bill authorizes the President to 
vest Libyan Government property within the jurisdiction of the United 
States and use it for costs related to humanitarian relief to and for 
the benefit of the Libyan people. We see this legislation as addressing 
unique circumstances in Libya for limited, humanitarian purposes. This 
money belongs to the Libyan people, and it should serve the Libyan 
people.
    Third, protecting civilians remains at the core of our mission. We 
are engaged in robust humanitarian efforts to help those in need inside 
Libya and those who have fled the violence. Our government is providing 
more than $53 million in humanitarian assistance, which helps to 
evacuate and repatriate third-country nationals, care for refugees on 
Libya's borders and deliver food and medicine. The international 
community has already contributed, committed, or pledged $245 million. 
We continue to look for additional ways to support humanitarian 
operations in response to the Libyan crisis.
    Unfortunately, the Qadhafi regime has tried to block the delivery 
of desperately needed humanitarian assistance. The brave people of 
Misrata have withstood a month-long siege as well as repeated 
incursions, assaults, and atrocities. Qadhafi has blocked water, gas, 
and electricity. And this week, his regime laid antiship mines in 
Misrata's harbor in a failed attempt to block humanitarian aid and 
medical evacuations. What has happened in Misrata is an outrage. 
Despite Qadhafi's best efforts, we have now established a safe route 
for assistance to reach Misrata and its people.
    We salute the determination and resilience of the Libyan people in 
and around Misrata. We are inspired by the way they have stepped 
forward to protect and care for their neighbors who managed to escape 
from areas under attack. We are also proud that NGOs we fund have 
provided much-needed medical personnel and supplies to these cities, 
despite Qadhafi's attacks.
    Qadhafi knows what he needs to do. The violence must end and the 
threats must stop. His troops must withdraw from the cities they have 
entered. Humanitarian goods must be allowed to move freely and vital 
services must be restored. Qadhafi must go to allow the people of Libya 
to chart their own future.
    Our approach is one that has succeeded before. In Kosovo, we built 
an international coalition around a narrow civilian protection mission. 
Even after Milosevic withdrew his forces and the bombing stopped, the 
political and economic pressure continued. Within 2 years, Milosevic 
was thrown out of office and turned over to The Hague.
    I understand the desire for quick results, and of course I share 
it. But history teaches us that patience and persistence can pay off. 
We have already seen international pressure change the calculations of 
some of Qadhafi's closest advisers, who have defected. It is impossible 
to predict which step will tip the balance.
    The way forward is not easy. It will take sustained effort. And it 
will take continued close consultation with Congress.
    We know what needs to happen. And so we are using as many tools and 
levers as we can to bring about our ultimate objective: the end of 
Qadhafi's rule and a new beginning for a peaceful, democratic Libya.

    The Chairman. Well, thanks very much, Mr. Secretary. I 
appreciate the testimony.
    Let me ask you, can you speak to sort of how effective you 
think the sanctions and the international diplomatic pressure 
right now is and whether there are signs of fissures or 
additional defections potentially within the Qadhafi circle?
    Mr. Steinberg. Well, Senator, I think it is always 
difficult in these circumstances to know, especially given the 
closed the nature of the Qadhafi regime, but we do see real 
signs that in terms of the ability to conduct business as 
usual, particularly the lifeblood of the regime, the oil sales 
and financial transactions, that we have been very successful 
in mobilizing the international community. We see no signs of 
oil exports from the Libyan regime itself, although we are 
working with the TNC to see whether they can do this. Their 
access to the financial system has been badly damaged, and so 
we do see signs that this is creating real pressure there. It 
all goes hand in hand with trying to bring together the 
political, the economic, and the military together to make the 
regime recognize that there are direct consequences and that we 
have sustainable power here.
    The Chairman. What impact do you think the International 
Criminal Court arrest warrants might have, if any, in 
calculations?
    Mr. Steinberg. I think as we said from the beginning that 
it is essential that both Colonel Qadhafi and all those around 
him understand that there are consequences for what they are 
doing and that they will be held accountable, and that the 
individuals who are making the decisions and supporting Qadhafi 
need to know that as they continue to undertake operations 
which violate humanitarian law, that they will have 
consequences for this. I think it dramatically increases the 
pressure on the individuals in the regime.
    And I think the important experience that we had in the 
context of Kosovo is, as I mentioned in my last testimony, I 
think is a real indication, not just for those who are 
indicted, but for others around them, that this can make them 
understand that they face clearer choices and that the longer 
they hang on, the greater risk to themselves.
    The Chairman. I think it is important, as we go down this 
road, to remember that after we intervened in the Balkans and 
bombed quite significantly Serbia, Milosevic was there for 
another year, a whole year, and ultimately left not because we 
drove them out but because the people did at the ballot box 
fundamentally. There is not going to be a ballot box here.
    But from what I understand from a number of sources in 
conversations I had recently abroad, the pressures are building 
on Qadhafi. The calculations are beginning to shift among some 
of his folks who are aware that the opposition is getting more 
organized, the opposition is getting more support, the 
opposition is gaining on the ground. And so I think we are sort 
of back closer--not yet at the same point, but closer to where 
we were in the initial week or so when this swept the whole 
country.
    The indications I have are that is broadly within the 
population, even people within the areas of Qadhafi control, 
they do not want him to stay and that there is a very broad-
based Libyan people opposition to his presence.
    Can you speak to sort of what insights you and the 
Secretary and the others get in your conversations with our 
allies and how you may be viewing the end game here, the longer 
run?
    Mr. Steinberg. Well, I think again we have to be careful in 
speculating, obviously. We see some signs that there may be 
some interest of people around Qadhafi to find a way out, but 
these are the kinds of things that until it actually happens, 
you do not want to bank on them. That is why we have to keep 
the pressure on.
    I think the most significant feature is the quite strong 
consensus in the international community to not look for half-
measures, not to look for ways to let him stay or try to begin 
to cut back on our basic demands for what needs to happen. This 
most recent, the third Contact Group meeting was a real 
affirmation of the fact that there is a complete consensus in 
the international community that there is no future here that 
involves Qadhafi in power or as part of the solution. And I 
think that that is similar to what happened in the Balkans, a 
recognition that this may not happen today or tomorrow but 
there is simply no long-term future for Qadhafi. And I think 
more than anything else that that is what helped shaped the 
environment and makes it clear to others who may want to be 
part of a future that they have to find an alternative. And I 
think that is what we are driving home.
    As I mentioned, I think that the efforts by countries like 
Turkey, which in the past had been more equivocal about this, 
closing their mission in Tripoli, making stronger statements 
about this, continues their drum beat that has to be having an 
impact among the regime about the fact that there is no kind of 
halfway option that they might be able to hold on here and kind 
of negotiate their way out of it.
    The Chairman. The final question for me. We are nearing the 
60-day mark with respect to the operation's start. Can you just 
speak to the type of operations we are engaged in and how the 
administration views the authority for U.S. military 
participation in Operation Unified Protector at this point?
    Mr. Steinberg. Well, in terms of the specifics, as you will 
understand, Mr. Chairman, I would prefer my colleagues on the 
military side to speak to that.
    But I think we can say that as we have said from the 
beginning, that the very substantial majority of the operations 
are being conducted by the coalition partners, that we have 
reduced our role to primarily a supporting role, and in cases 
where we have some unique assets that we made available. 
Mindful of the passage of time, including the end of the 2-
month period, we are in the process of reviewing our role, and 
we will and the President will be making decisions going 
forward in terms of what he sees is appropriate for us to do, 
as I say, with his commitment to act consistently with the War 
Powers resolution.
    The Chairman. Thank you very much, Mr. Secretary.
    I am going to be leaving momentarily for the meeting I have 
to go to, but Senator Lugar will continue and I think Senator 
Shaheen will be here at some point.
    Senator Lugar.
    Senator Lugar [presiding]. Thank you very much, Mr. 
Chairman.
    As I mentioned, Secretary Steinberg, in my opening 
statement, the President did not seek authorization from 
Congress to use military force in Libya prior to the beginning 
of our military's involvement there. And while there have been 
constitutional debates in our country about the authority of 
the President and the War Powers Act ever since the act was 
passed, there has not been much discussion regarding the War 
Powers Act and the authority the President may have 
specifically with regard to using our military assets to 
intervene in the Libyan civil war.
    But leaving that aside, there has also not been really a 
search for precisely what the President of the United States 
ought to be seeking authority for in this particular situation. 
Now, in fairness, the President, in response to questions that 
I raised directly to him on two occasions, said that the United 
States would not be placing boots on the ground. He has 
indicated that this is clearly a humanitarian operation in 
which we will work with our NATO allies. We will be behind 
them. We will push them forward both through our actions and 
through our rhetoric, the latter of which has consisted of very 
clear statements that Qadhafi must go and that there is clearly 
an end game here, although one does not know the timeframe in 
which this may occur.
    I am disturbed not only by our ongoing involvement in Libya 
itself, but also that it will very likely set a precedent that 
could be drawn upon by President Obama or a future President in 
the case of a situation in which there is a perceived need to 
use military force in other countries. Now, in the case of the 
Balkans a while back, we did attempt to help our European 
allies because they said the nature of the force required there 
was too much for them to execute on their own. But during that 
time, we were not in a situation analogous to the Arab Spring 
in which several authoritarian regimes were simultaneously 
combating internal dissent in an especially brutal fashion. And 
so it seems to me that this is clearly a time in which the 
proper authority ought to be sought by the President. There 
ought to be a proper debate in the Congress.
    And before you even get to that, we are now in a situation 
in which we are taking authority to reach into Libyan 
resources. The rationale is that these are resources that were 
commandeered by Colonel Qadhafi in one form or another, and 
therefore they should be taken from him and used in a 
humanitarian way for the Libyan people. This seems to me, once 
again, to be a very big reach. Now, granted, Senator Kerry has 
indicated that he has been working with the administration on 
enabling legislation for this. So we may, therefore, have a 
congressional debate on that authority.
    But even then, granted the dislike we have for Qadhafi or 
various other people, reaching in and taking those resources 
and then distributing them in an uncertain way, unless the 
United States is going to take special precautions to closely 
monitor the disbursement of this assistance--a task we are 
finding to be very difficult to do in Pakistan, for example, 
with much greater cooperation--seems to me to be a stretch.
    And I raise this and I am grateful for this hearing because 
we are moving rapidly in a situation in which we have not 
declared war. The War Powers Act has not been observed. We have 
no particular authority for any of this aside from the 
President's assertion that we needed to save lives.
    We have already launched missiles into Libya at 
considerable expense. The meter is still running on our 
expenditures of our defense budget without much accounting for 
how much can be attributed to Libya or how far we plan to go in 
this operation, not to mention any responsibility we plan to 
take for rehabilitation efforts after hostilities cease.
    What is your own judgment as to what the administration is 
likely to do with regard to war powers or with regard to 
reaching into the coffers of Qadhafi? What sort of authorities 
do you believe are there or are required under these 
circumstances?
    Mr. Steinberg. Well, thank you, Senator.
    On the issue of getting access to the Libyan assets, we do 
want congressional authorization. We do believe that under 
these circumstances we are not seeking to do this under any 
existing authorities, but rather, we think because this is a 
unique case and that these assets were frozen pursuant to a 
U.N. Security Council resolution, which complemented our own 
domestic law that allowed us to freeze these assets, we thought 
it was important to work with you to craft this to precisely 
address the questions that you raise in terms of the purpose, 
which we think should be limited to the humanitarian purpose, 
in terms of oversight and making sure that those things do 
serve that purpose. And in our discussions with you and the 
chairman and others, we want to make sure that we craft that 
legislation in a way that does address the issues that you have 
raised.
    We think this is a narrow set of authorities that we would 
like to be able to have to deal with the circumstance. But we 
do think under these circumstances that given the humanitarian 
needs of the Libyan people, that it is appropriate that these 
things that are largely derived from their own resources should 
be able to be put in a controlled way to their benefit. But 
again, we look forward to working with the Congress to 
establish that authority and the terms under which it would be 
used.
    With respect to the war powers, as I said, the President 
has been committed from the beginning to act consistent with 
the War Powers resolution. We have provided a notification to 
Congress, consistent with the War Powers resolution, at the 
outset of the operations. And as we continue to move forward, 
the President is committed to do that as well. And as I said, 
we will be looking at our own role and our activities as we 
move through the next period of time, and again, we will do 
this in consultation with you as we look to what we think we 
can and cannot do. We will be engaged in close consultation 
with Congress on this issue.
    Senator Lugar. Well, this is a debate we may have. I just 
raise the question of authorities not just with regard to 
Libya, but generally as to our ability to, in a civil war, 
begin to allocate resources of one party or another in a 
situation where we have not declared war and really have not 
declared our intentions. I think this is a very serious set of 
questions that lie before us.
    Finally, I would just comment that certain allies are 
already indicating that there are limits to the extent of their 
involvement in NATO operations in Libya. Their Parliaments 
already are blowing the whistle on how many months they can 
participate. Perhaps your response will be, well, after all, 
there are a lot of NATO nations, and therefore some will remain 
willing to commit their military forces.
    But what is the limit in terms of contributions from our 
NATO allies, given that they have been constricting their 
defense budgets for a long time, much to our regret? And 
finally, where are we left as they depart the scene, even 
though we keep shoving them forward and indicating that we are 
not the leader?
    Mr. Steinberg. Well, Senator, I do think that what has been 
remarkable is the persistence and the commitment of the NATO 
allies and the others who are participating. We have not seen 
any flagging of commitment. I think that we are mindful that we 
need to sustain this to make sure that humanitarian objectives 
are achieved, but I think that we do not want to set any kind 
of artificial deadline on this to sort of somehow allow the 
regime to wait us out. But I think there is clear 
determination. There will be important meetings coming up in 
NATO in early June, I believe is the next ministerials. And so 
that is an opportunity to look at the resources and the way 
forward.
    Senator Lugar. Thank you very much.
    Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    Secretary Steinberg, it is always nice to have you before 
our committee. Thank you very much for your service.
    Obviously, the situation in Libya is fluid. It changes. And 
one of the areas that has me greatly concerned deals with the 
issues concerning migrants. In fact, the principal reason for 
international intervention in Libya is to provide safety for 
the people in the country. The numbers that I have is that the 
number of migrants exiting Libya as of the beginning of this 
month was in excess of 700,000, and over one-third were foreign 
nationals.
    I bring that up because reports from those fleeing Libya 
entering Italy--there have been reports that there have been 
hundreds lost at sea by boats that have capsized leaving 
Tripoli.
    My question to you, I think, is twofold as it relates to 
the migrants. If this conflict becomes protracted, the number 
of migrants will increase and will cause increasing problems in 
the surrounding countries. We know that they have migrated to 
Tunisia, Egypt, Niger, Algeria, Chad, and Sudan. Is there a 
strategy within the international coalition to first deal with 
the safety of those fleeing Libya, and second, having a game 
plan, depending in part by the length of this conflict insofar 
as time, as to what we are going to do with the migrants? We do 
not want to create another circumstance similar to what 
happened in Iraq where we have had permanent issues that are 
going to be difficult to deal with because of the number of 
displaced individuals and migrants. So do we have a game plan 
as it relates to the migrant population?
    Mr. Steinberg. Thank you, Senator. Obviously, this is an 
important issue and clearly was one of the main reasons for our 
initial engagement, both to deal with the humanitarian 
situation in Libya, but also the prospect of it destabilizing 
the neighboring countries.
    I had a chance to review some of these issues with the 
experts in the Department yesterday on this, and I am going to 
give you some ballpark numbers from my memory, but if you will 
allow me for the record, I can make sure I get it exactly 
accurate.
    Senator Cardin. Sure.
    Mr. Steinberg. I think first that actually the response of 
the United States and the international community to the 
problem of migrants, both displaced Libyans and third-country 
nationals who were driven out of the country, has really been 
remarkable. If you look at the situation both in Tunisia and 
Egypt today compared to where it was several weeks ago, the 
numbers are down. There are relatively small numbers in camps. 
Through the generosity of people, especially in Tunisia, a 
number of people are living with families in Tunisia supporting 
that effort. And so we do not have the hundreds of thousands in 
desperate circumstances that we saw in the early days. There 
has been especially, I think, a very effective international 
effort to help move the third-country nationals back to their 
homes.
    So that is one aspect of the problem. It is not completely 
over. People do continue to leave the country, but we have, I 
think, in terms of both a game plan and a strategy to try to 
reduce the pressure on the borders and on Tunisia and Egypt, 
that we have had some real successes. We are not being 
complacent about it, but I do think there has been some success 
there.
    The second is clearly to the extent that we are successful 
in protecting Benghazi and its surrounding area, that we are 
able to create a more stable situation in Misrata and 
elsewhere, that also reduces the pressure on people to leave 
and the impending fear of disaster that would force increased 
numbers. So the humanitarian intervention here has a very 
significant prospect for dealing with that forward.
    But ultimately, as you mentioned as in the case of Iraq, 
the long-term success depends on a political change in Libya 
that will create an environment for those who have been fearful 
of being able to stay and have left to come back. And that is 
among the reasons why we are so committed to this political 
change and why we do not believe that some kind of compromise 
or half-measures with Qadhafi will be a solution to this 
problem, either in terms of a sustainable democracy in Libya or 
bringing an end to this humanitarian and migration problem.
    So it is something we have attached great importance to, we 
have devoted significant resources to, and I do think we have a 
game, but at heart, that game plan is a part of the broader 
strategy for bringing about political change in Libya.
    Senator Cardin. I think you are absolutely right. I guess 
my main point on this is that, look, we all want to see a 
regime change and stability in the country as quickly as 
possible. But it seems to me that the international community 
needs to have a game plan as it relates to the migrants. Yes, 
if this matter is resolved quickly within a matter of weeks, it 
is one set of circumstances as it relates to displaced 
individuals, but if this becomes a conflict that goes on for a 
longer period of time, there needs to be a different strategy 
as it relates to the migrant population.
    I am pleased to see that foreign nationals have been able 
to get back to their host countries and that there are 
accommodations for those who have left out of fear who hope one 
day to return to Libya.
    I would ask that you investigate the released reports about 
those fleeing Tripoli by small boats and their safety as to 
whether there is a need for international attention toward 
their safety. There have been reports that there have been 
those lost at sea. If you could look into that, I would 
appreciate it.
    Mr. Steinberg. Absolutely.
    Senator Cardin. And one last point, if I might, and that 
deals with the war crimes issues. There have been some reports 
that the International Criminal Court is active in this area 
looking at war crimes committed by officials in Libya. Can you 
either update us as to what is happening as it relates to 
potential war crimes and what the United States is doing in 
order to pursue those types of accountabilities for those 
responsible for mass murders and other actions within Libya?
    Mr. Steinberg. Yes, Senator. This past week the ICC 
prosecutor announced that he does intend to apply for arrest 
warrants for three senior officials in Qadhafi's regime. So 
this process is going forward and we are supporting these 
efforts in terms of collecting information as in others. And we 
do think this is an important part of both the pressure and the 
accountability that can have an impact not just on Qadhafi 
himself but those around him in terms of forcing the choices 
that we would like to see made sooner rather than later.
    Senator Cardin. Of course, we believe that Colonel Qadhafi 
should be a target of this investigation. But I would very much 
urge the United States to be actively engaged in pursuing these 
issues. I think it is important to the international community.
    Mr. Steinberg. We share that too, Senator.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Cardin.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you for your service. I respect the work you do and 
appreciate your coming up here.
    I will tell you, you know, you use the word 
``consultation,'' but there really is not any consultation. It 
is a nice word to use. I know we have written a letter asking 
about the assets that we have engaged militarily and have 
gotten a stiff arm now for several weeks. I know that today we 
asked for somebody from the military to be here and you 
declined. And I think someone asked you earlier what assets we 
did have engaged, and you said you defer to the military.
    So I would like to ask why, in the name of consultation, 
the administration has been so remiss in letting us know 
actually what we are doing as it relates to our military assets 
and engagements in Libya.
    Mr. Steinberg. Senator, there are obviously a number of 
forums in which there are opportunities to explore these 
issues, and I think we need to explore how we can best get the 
information to you that you need.
    Senator Corker. Well, you know, I have written a letter 
several weeks ago and again I have gotten a stiff arm from the 
administration. Name the forum and I will be there. I am not 
busy after 1 o'clock today, and I will be around on Monday. So 
could you arrange to set that up and let us know exactly what 
is happening?
    Mr. Steinberg. I commit to get back to you on what we can 
do.
    Senator Corker. I do not understand. I really do not. 
People are concerned about mission creep. And I do not 
understand. I mean, it is not as if there is some huge rift 
happening here. I do hope you will get back, and I hope the 
Secretary and the Secretary of Defense will get back very 
quickly and just let us know.
    I mean, this use of the word ``consultation'' is bogus, and 
people like myself who have cooperated with you in many ways 
candidly are getting a little impatient with the fact that 
basically you are waiting until this conflict is mostly over 
possibly to even let us know what is happening. I do not 
consider that consultation, nor do I consider that something 
that creates good will, nor do I consider that something that 
is going to cause us to be able to work well together in the 
future. So I do hope you will get back very, very quickly. You 
know how to reach me.
    Let me ask you this. What have we told the rebels, if you 
will?
    And by the way, one of their leaders was in yesterday, and 
for what it is worth, publicly I will state, a pretty 
impressive guy. I was impressed with what he said and the 
things that he talked about were happening on the ground.
    As a matter of fact, he mentioned that the fact that we 
have not come in in a more forceful way has allowed them over 
time to be in a state of unification, meaning in the beginning 
they were not, that because they have had to do this 
themselves, they have become far more unified than they would 
have been otherwise. I wonder if you might speak to that for a 
moment.
    Mr. Steinberg. Well, thank you, Senator. I think we are all 
pleased that Mr. Jibril had a chance to meet with you all and 
has a chance to really engage because understanding--and it was 
very clear from the last time I was up here--the importance 
that you all attach understandably to understanding what this 
movement is and who these people are.
    And I do think it is a challenge. This is putting together 
under very difficult circumstances an effective set of 
operating procedures and institutions to meet both the civilian 
and the military requirements that they are facing is a 
challenge. It is a very disparate group of people, but they are 
motivated, I think, by a common set of objectives.
    And we have seen over time the strengthening of their 
cooperation in their institutions. We have learned just in the 
last day or so that they expect to announce a new Defense 
Minister to help organize their military activities. We have 
seen on the civilian side a strengthening of the financial 
structures and the way in which they are coordinating their 
efforts.
    There is a much more substantial international presence now 
in Benghazi that is interacting with them, sharing expertise, 
and trying to help them strengthen that capacity. And so while 
they started from a difficult set of challenges and a low base, 
I do think in the course of what has been less than 2 months' 
time, that there has been a really tremendous set of 
achievements. We need to help them do that. We can provide 
advice and counsel.
    But what is important, as you said, is that this is 
homegrown. This is indigenous. It is not being opposed by the 
outside. These are people there. And I also think it is 
important that the leadership in eastern Libya is reaching out 
to other tribes and other actors from other parts of Libya too. 
They have made this commitment to an inclusive process so that 
it is not just the self-appointed group. And I do think given 
all the difficulties they face, we should be impressed and 
appreciative of what they have done, and I know they value the 
advice that they are getting from you and others.
    Senator Corker. So that leads me to the next question. What 
is it that we are telling them--what are you telling them--that 
we are going to do in regards to support, should they be 
successful? I think their time horizon for when they think 
Qadhafi is out of there is maybe shorter than it really is. Who 
knows whether they are right or not? But what is it that you 
are telling them we as a country are going to do to support 
their efforts post-Qadhafi?
    Mr. Steinberg. Well, I think if there is one especially 
hopeful point in the future here it is that this is a country 
with great natural resources and potentially great access not 
only to the existing resources that have been blocked by us and 
so many others, but also an ongoing set of resources. So one 
would hope, going forward, that significant aspects of what 
will be a financial challenge can be generated by the Libyan 
people themselves.
    I think the place where we can be most helpful generally is 
providing advice and guidance and counsel in terms of how to 
build the democratic structures. We have a lot of experience 
with that in other contexts. We have also worked with others.
    There have been some remarkable conferences in recent weeks 
with leaders from Central and Eastern Europe sharing their 
experiences in the post-Communist period to the leadership of 
the TNC. I know the Polish Foreign Minister, for example, has 
been working on that and people from civil society in Central 
and Eastern Europe. I think that is the place where the outside 
world is going to have the greatest to offer, working with our 
NGO's, as well as our Government and other partners, to help 
build the structures for a civil society.
    Senator Corker. So you see it as one of advice. You do not 
see us engaged in the kind of nation-building, state-building 
that is occurring in Afghanistan in any way. You do not see us 
doing any of that. They will have their own resources. We will 
provide advice and they will take it and run. That is what you 
see happening.
    Mr. Steinberg. I do not want to say, Senator, that there 
are targeted places in which reasonably modest amounts of 
assistance would support that technical advice. But I do 
believe that our approach here is that there is a capacity 
within Libya to take this on and we want to support that.
    Senator Corker. Let me just close. I know my time is up. We 
have a hearing on Afghanistan next week. Secretary Clinton has 
declined to come. There are no administration witnesses. Again, 
I think most of the folks on this panel realize that 
partisanship stops at our shoreline. We have all worked 
together to do a lot of good things together. I will say to you 
right now you all are not exhibiting the kind of relationship 
that we have had in the past, and to me you are seeding the 
germination, if you will, of some really bad will by the way 
you are handling this conflict and your lack of transparency 
that this administration has been built upon. I hope that will 
change very quickly.
    Mr. Steinberg. Senator, I know the Secretary is deeply 
committed to this, as you know. She takes especially seriously 
her relations with the Congress, given her own background. And 
she, I think, works very hard both in formal and informal 
settings to be in touch with you to have both individual 
conversations and with the committee as a whole. But I will 
take back your concerns.
    Senator Corker. She has been off the air for a while.
    Mr. Steinberg. She has been, as you know, traveling also 
and working very hard on these issues. But I know she takes 
this seriously, and I will take back your concerns.
    Senator Lugar. Thank you, Senator Corker.
    Senator Menendez.
    Senator Menendez. Thank you.
    Mr. Secretary, yesterday I met with Mr. Jibril and he 
indicated that once a new government is formed, it would be 
willing to cooperate with the United States on a new 
investigation into the Pan Am 103 bombing. Given the additional 
information that would be available from a compliant Libyan 
partner, is the administration open to a new investigation into 
the Pan Am bombing and would it commence legal action on U.S. 
soil against all persons responsible for planning, authorizing, 
or carrying out that attack?
    Mr. Steinberg. Well, Senator, I think like you we have been 
very struck by this attitude that the TNC leadership has had 
and a recognition that going forward, that part of a long-term 
relationship with the United States and the international 
community would be increased transparency about the past and 
really living up to those international principles.
    On the specific question, obviously, this is an issue for 
the Justice Department in terms of how they would proceed 
there, but I would be happy to forward your concerns.
    Senator Menendez. But you all interface with the Justice 
Department in the context of what our future relationship is 
going to be with a future Libyan Government and 
recommendations.
    Mr. Steinberg. Right. We certainly welcome the offer that 
he made. We think it would be important in terms of long-term 
relations between the United States and a democratic government 
in Libya that they be supportive and cooperative. The only 
thing I cannot specifically speak to is whether we would open a 
new criminal investigation.
    Senator Menendez. Has the State Department raised this 
question with Mr. Jibril and the TNC?
    Mr. Steinberg. In general terms, yes. And I will be meeting 
with him myself and will have an opportunity to discuss this as 
well.
    Senator Menendez. Well, I hope you would get him to verify 
to you what he said to me.
    Mr. Steinberg. I would look forward to that.
    Senator Menendez. Second, to your knowledge, have members
of the TNC and Mr. Moussa Koussa been interviewed by the 
Department of Justice, the FBI, or the State Department about 
their knowledge, planning, and authorization of the Pan Am 103 
bombing?
    Mr. Steinberg. Senator, as I told you the last time we 
talked about this, we have made clear to the British 
authorities that we believe it is important for us to have 
appropriate access there. Because this is an ongoing criminal 
investigation, in terms of the specifics, I have to defer to 
the Justice Department in terms of what is taking place.
    Senator Menendez. Has the State Department raised, outside 
of the Justice Department, questions of that nature with Mr. 
Moussa Koussa? Have you had access to Mr. Moussa Koussa yet?
    Mr. Steinberg. I do not know that the State Department has 
had access. I would have to check, but I do not believe so.
    Senator Menendez. Would you get back to me and let me know?
    Mr. Steinberg. Yes, I can get back to you, but I do not 
believe the State Department----
    Senator Menendez. Would the State Department condition a 
recognition of a future Libyan Government on a commitment to a 
new investigation, cooperation on Pan Am 103 and access to Mr. 
al-Megrahi?
    Mr. Steinberg. Again, Senator, it is something I think we 
should raise with the TNC in terms of what they are prepared to 
do and make clear the importance that we attach to that.
    Senator Menendez. I hear you but I do not understand what 
the State Department is going to recommend to the President of 
the United States, along with the NSC, as to the position we 
should take with the TNC and under what conditions. It seems to 
me that it is perfectly reasonable to expect that Americans 
whose families were killed at the orders of Mr. Qadhafi should 
be able to derive from a new Libyan Government a commitment to 
democracy, human rights, and the rule of law, as a condition 
precedent extract that as a commitment.
    Mr. Steinberg. I guess what I would say, Senator, is that I 
think we share the importance that you attach to it.
    I think what has been important and what you heard is the 
first best case is for them to offer to do this without our 
making it a condition rather than looking like somehow this is 
being imposed on them, for them to willingly assume that. So I 
would encourage them and we would hope that they would do that. 
And I think that is what we would hope is that what Mr. Jibril 
told you would be what they did. And rather than because we 
imposed the commitment, it is because they understood, in terms 
of their own democratic development----
    Senator Menendez. I appreciate their, at least on this 
point, willingness to suggest they would be helpful and 
cooperative. With Mr. Qadhafi, we created conditions precedent. 
Right? He had to renounce terrorism. He had to get rid of his 
weapons. Those were conditions. I see no reason why the United 
States Government cannot insist, in the process of pursuing a 
relationship with the TNC, that they be committed to what, in 
essence, is the fulfillment of the rule of law and justice.
    So this Senator and my colleagues, Senator Lautenberg, 
Senator Schumer, Senator Gillibrand, who have all shown 
interest on this, will be very concerned about what the State 
Department does in that regard.
    Thank you.
    Mr. Steinberg. Thank you, Senator.
    Senator Lugar. Thank you, Senator Menendez.
    Thank you especially, Secretary Steinberg, for 
accommodating all of the schedules of Senators who have the 
meetings at the White House that we all seem to have very 
shortly.
    Mr. Steinberg. Well, I am glad to see that Senators are 
being called down to the White House in the spirit of 
consultation that we think is so important.
    Senator Lugar. Excellent. We will do our best.
    Thank you very much, sir.
    Mr. Steinberg. Thank you, sir.
    [Whereupon, at 10:15 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


Responses of Deputy Secretary of State James B. Steinberg to Questions 
                   Submitted by Senator John F. Kerry

    Question. What is the financial viability of the Transitional 
National Council? What financial support are other nations providing to 
the Council?

    Answer. One of the primary functions of the Transitional National 
Council (TNC) is to serve as an administrative body on behalf of the 
Libyan people, providing essential services, such as security, health 
care, water, and electricity, to those citizens located in areas 
outside of regime control. In pursuing these efforts, the TNC faces 
significant financial challenges, including an estimated $2 billion 
budget shortfall over the next 6 months, and has requested the 
assistance of the international community to meet these needs until a 
political transition can take place and the Libyan people again have 
access to the considerable regime assets currently blocked under 
sanctions. In response, the Libya Contact Group has been developing a 
Temporary Financing Mechanism (TFM) to facilitate contributions to the 
TNC and ensure that they are made in a transparent and accountable way. 
Kuwait has already pledged $180 million to the TFM and others have also 
expressed interest in making donations. The Contact Group is also 
working to create a Libya Information Exchange Mechanism (LIEM) to 
coordinate the provision of in-kind assistance to the TNC. Italy has 
agreed to administer the LIEM.
    In addition to working with the Contact Group to facilitate 
assistance to the TNC, the United States is also providing up to $25 
million in nonlethal military assistance directly to the TNC. The 
President is also discussing proposed legislation with Congress that 
would authorize vesting of approximately $200 million in blocked regime 
assets to be used for humanitarian and civilian purposes in Libya. We 
are reaching out to our international partners to encourage them to 
take similar steps to aid the TNC.

    Question. The TNC has put forward a rather commendable roadmap for 
a democratic transition after Qadhafi is gone. But Qadhafi has for 
decades destroyed his country's democratic institutions, so the task 
ahead will be a daunting one. What will be the biggest challenges in 
the post-Qadhafi reconstruction of Libya? What specific resources will 
the United States and the international community have at their 
disposal to support Libya's democratic transition? What planning is the 
administration doing for the post-conflict transition period in Libya?

    Answer. As we continue to deepen our engagement with the Libyan 
opposition, we are encouraged by their commitment to democratic 
principles and their roadmap for a political transition following the 
departure of Qadhafi from power. It will ultimately be up to the Libyan 
people to choose their own leaders and government structures, and to 
address the reconciliation of a Libya marred by 40 years of 
dictatorship and the regime's use of brutal force against civilians. 
Any transition will have to look at creating institutions that respect 
the integrity and sovereignty of a united Libya and that reflect the 
Libyan people's genuine aspirations for freedom and democracy. We 
believe that the U.N. should have the lead role in coordinating 
international support for a political transition in Libya. We are 
working very closely with our international partners and U.N. planning 
teams to explore the goals and priorities in a post-Qadhafi Libya, and 
understand the most effective ways in which the international community 
can contribute. As the TNC has pointed out, Libya is an oil-rich 
country and will be well positioned to bear many of the costs of a 
post-Qadhafi transition.

    Question. What role have Libya's neighbors played in the conflict? 
How has Egypt's Supreme Council of the Armed Forces responded to the 
continuing unrest? What is your view of TNC criticism of Algeria's role 
to date? What is you view of concerns expressed by Algeria and Chad 
about regional security? How would you characterize levels of support 
for NATO operations across the broader Middle East as the conflict 
wears on?

    Answer. We expect that Arab support for the Libya Contact Group and 
the NATO-led operation will persist, as evidenced by Arab governments' 
cooperation on the effort in both fora. Morocco, Qatar, and the United 
Arab Emirates participate in the NATO-led operation and planning 
meetings, while the Arab League has followed its initial support for 
international intervention with efforts to terminate the satellite 
broadcast of Libyan state television stations. The Libya Contact Group 
and the United States appreciate the Arab League's position on this 
issue, and we believe that this solidarity is a strong indicator that 
the coalition's actions continue to be widely supported.
    Tunisia has been very helpful in managing the flow of migrants and 
conflict victims fleeing the violence in Libya. The Tunisian military 
has facilitated border crossings and evacuations for a multitude of the 
third-country nationals leaving Libya en route home, as well as roughly 
80,000 Libyan refugees. For those not staying in UNHCR-administered 
camps, the Tunisian Government has permitted Libyan refugees to avail 
themselves of the Tunisian health care system and permitted their 
children to attend public schools. Unfortunately, cross-border shelling 
into Tunisia is causing increasing concern.
    The Egyptian Government has worked with us as a strong partner 
throughout the Libyan crisis, and we will continue to work with the 
Egyptian Government to ensure that shelter arrangements can meet the 
full range of refugee needs on the Egypt-Libya border. We continue to 
work with Egypt to ensure that equipment--such as generators--arrive in 
a timely way to provide vital, lifesaving humanitarian assistance.
    We are working closely with the Government of Algeria to ensure 
that United Nations Security Council Resolution 1973, which Algeria has 
committed to supporting through the Arab League, is fully implemented. 
Algeria shares our desire to see an end to the bloodshed and violence 
in Libya and has long been a strong bilateral partner and a regional 
leader in counterterrorism efforts.
    The United States understands the fears expressed by many countries 
in the region, including Algeria and Chad, that the unrest in Libya 
could result in flows of weapons and fighters who could potentially 
destabilize neighboring states and harm regional security. But it is 
the our belief, and the belief of our coalition partners, that long-
term stability in the region will be achievable only after Qadhafi 
leaves power and Libyans embark on a transition to a democratic system 
of governance that respects the fundamental rights and freedoms of its 
citizens. A stable and democratic Libya will promote regional security.

    Question. Tens of thousands of refugees have fled across the Libyan 
border into Egypt or Tunisia while still others remain trapped inside 
the country. As fighting in Libya has raged on, there have been 
increasing concerns about the well-being of Libyans and other nationals 
who have fled to neighboring countries. Please provide details on U.S. 
support for these displaced persons.

    Answer. Since the beginning of the conflict in late February, more 
than 840,000 people have departed Libya, crossing its borders to 
neighboring countries or fleeing by sea to Italy. A large number of 
these departures are Libyans conducting business or seeking medical 
care in neighboring countries, and most have already returned or plan 
to return to Libya. Of greater concern are:
    1. Libyans and third-country nationals (TCNs) displaced and/or 
stranded inside Libya. The U.N. estimates roughly 460,000 Libyans are 
internally displaced. IOM estimates there could be thousands of TCNs 
still stranded in places such as Tripoli, Misratah, and the Western 
Mountain area.
    2. Libyan refugees who have fled to Tunisia (around 70,000) and 
Egypt (around 20,000).
    3. TCNs who also fled, primarily to Tunisia and Egypt (around 
275,000). Most TCNs have now been repatriated to their countries of 
origin but some 6,000 persons of concern to UNHCR remain in Tunisia and 
Egypt and cannot be returned home due to ongoing conflict and fear of 
reprisals upon return.
    Because of ongoing support from the U.S. Government to 
organizations such as the United Nation High Commissioner for Refugees 
(UNHCR), the International Organization for Migration (IOM), and the 
International Committee of the Red Cross (ICRC), these organizations 
were well placed to respond when the crisis erupted and were able to 
immediately dispatch emergency staff to the region. As the crisis has 
evolved, the USG has provided $53.5 million in earmarked humanitarian 
assistance for Libya and those fleeing Libya. Key contributions 
include:

  <bullet> $19.5 million to IOM from the Department of State's Bureau 
        of Population, Refugees, and Migration (State/PRM);
  <bullet> $7 million to UNHCR from State/PRM;
  <bullet> $7 million to ICRC from State/PRM;
  <bullet> $10 million to World Food Programme from USAID's Office of 
        Food for Peace;
  <bullet> $10 million to nongovernmental organizations and 
        international organizations from USAID's Office of Foreign 
        Disaster Assistance.

    Our support to these organizations has facilitated the evacuation 
and repatriation of more than 138,000 TCNs, provided life-saving 
assistance at the border for those fleeing the conflict, and has 
expanded the humanitarian presence inside Libya to provide food, water, 
medical care and other life-saving services. Organizations such as ICRC 
and IOM have also been at the forefront of efforts to rescue migrants 
and wounded Libyans from the besieged city of Misratah.
    In addition to financial support to these organizations, we are 
working closely with UNHCR and other countries to find durable 
solutions for TCNs who cannot return home. We anticipate considering 
for U.S. resettlement several hundred TCNs (from places such as Somalia 
and Eritrea) who qualify for refugee status.
                                 ______
                                 

Responses of Deputy Secretary of State James B. Steinberg to Questions 
                 Submitted by Senator Richard G. Lugar

    Questions #s 1-6.

  <bullet> 1. What is the current nature and extent of our military 
        role in Libya? In particular,
          a. What personnel and assets are involved?
          b. How many airstrikes have U.S. forces conducted?
          c. What targets have U.S. forces struck?
          d. What damage has resulted from U.S. strikes?
          e. What has been the cost associated with U.S. operations in 
        Libya to date?

  <bullet> 2. Has the United States diverted military resources, 
        including surveillance
         assets or drones from the conflict in Afghanistan, or 
        counterterror operations in Yemen, Pakistan, and elsewhere, to 
        support the operations in Libya? What assessment have our 
        military commanders made as to the impact of any such 
        diversions?

  <bullet> 3. What military role does the administration intend the 
        United States to play in Libya in the period after 60 days from 
        the commencement of U.S. military operations in Libya? In 
        particular, does the administration intend that U.S. forces or 
        assets will carry out strikes or other uses of force in Libya 
        in this period?

  <bullet> 4. Can our NATO allies fulfill the primary combat mission in 
        Libya over an indefinite period, and how will the 
        administration respond if allies request greater military 
        involvement by the United States?

  <bullet> 5. What impact will the prolonged devotion of military 
        resources to Libya by NATO allies have on NATO's ability to 
        contribute to operations in Afghanistan?

  <bullet> 6. What scenarios or emergencies would cause the United 
        States to reescalate its military involvement in Libya, and 
        would the administration seek a congressional authorization if 
        it expands its military role?

    Answer. The Department of State defers to the Department of Defense 
for answer to questions 1-6 and 10.

    Question #7. What are the administration's plans for aiding the 
Libyan opposition economically and militarily?

    Answer. We are assessing and reviewing options for the types of 
assistance we could provide to the Libyan people, and are consulting 
directly with the opposition and our international partners about these 
matters. The President has directed up to $25 million in transfers of 
nonlethal items from U.S. Government stocks to key partners in Libya 
such as the Transitional National Council (TNC), and the transportation 
of these items. The list of potential ``nonlethal commodities'' that 
have been, or will be, provided was developed based on consultations 
with the TNC and our own assessment of what is useful and available, 
and includes medical supplies, boots, tents, personal protective gear, 
and prepackaged rations. The first shipment, including Meals Ready to 
Eat (MREs) arrived in Benghazi on May 10. The Departments of State and 
Defense will continue to work closely with our partner nations and the 
Libyan TNC to coordinate on the types of nonlethal assistance to be 
provided, in an effort to make the assistance as effective as possible 
and minimize duplication of effort.
    In terms of financial assistance, we have been supporting the Libya 
Contact Group's efforts to establish a Temporary Finance Mechanism 
(TFM) and a Libyan Information Exchange Mechanism (LIEM) that would 
facilitate much-needed financial contributions and other in-kind 
assistance to the TNC. We are strongly encouraging our international 
partners to assist the TNC directly or through one or both of these 
mechanisms.
    The administration is also discussing legislation with Congress 
that would permit the use of a portion of frozen regime assets for 
broadly humanitarian purposes in Libya. Under proposed legislation, 
humanitarian assistance would include basic life-saving and life-
support help, including commodities and subsidies needed to maintain 
basic living conditions among the population--for example, access to 
water, sanitation, food, shelter, and health care. This list is 
necessarily nonexhaustive, as circumstances could arise that would make 
other types of assistance--e.g., utilities (electricity, fuel), 
necessary to maintain basic living conditions among the population. 
This would not include offsetting the cost of our military action in 
Libya.

    Question #8. Secretary of Defense Gates reportedly said on May 12: 
``I think most of us are pretty cautious when it comes to who--who the 
opposition is. The truth is, my impression is that it's extraordinarily 
diverse. We deal with a handful of people in Benghazi, but we forget 
about those who led the uprisings in cities all over Libya when this 
whole thing started. And who are they? And are they genuinely anti-
Gadhafi? Are they tribal representatives? Are they--kind of who are 
they? And we have no idea who those people are, but they were the ones 
that led the major uprisings in Tripoli and a variety of the other 
cities.''

  <bullet> Beyond the opposition groups' shared desire to remove 
        Gaddafi from power, what goals or principles unite the 
        opposition? How confident is the administration that the 
        opposition will remain unified once Gaddafi has been removed 
        from power?

    Answer. We are learning more about the values, principles, and 
capabilities of the Libyan opposition as we deepen our engagement with 
them. Special Envoy Chris Stevens continues to meet with as broad a 
spectrum as possible of Libyans involved in the opposition writ large, 
including members of the TNC. As an administrative body, the TNC is 
taking steps to organize the opposition around a shared set of values 
and a genuine desire for a peaceful transition to democracy. For 
example, it has publicly rejected terrorism and extremist influences, 
committed to abide by the Geneva Conventions on the treatment of 
prisoners of war, and declared its respect for the human rights of all 
Libyans. The TNC has also announced a roadmap that sets out its vision 
to bring democracy to Libya, including convening an interim national 
assembly and drafting a constitution after Qadhafi has left power. In 
so doing, the TNC has made clear its dedication to creating an 
inclusive political process that respects the territorial integrity and 
sovereignty of Libya, and unites Libyans from all areas of the country.

    Question #9. What is the potential for recrimination and 
bloodletting in the aftermath of this conflict? I note press reports of 
revenge killings in areas under TNC control. What has the TNC told the 
administration about these killings, and what steps are they taking to 
ensure that this scenario does not play out on a national scale when 
Colonel Qadhafi is removed from power?

    Answer. We have seen some media reports regarding revenge killings, 
but do not have any additional information on the incidents, or who may 
have perpetrated them. The TNC has been very outspoken in its 
dedication to the principles of human rights and justice for all 
Libyans. The TNC has agreed, and publicly emphasized its commitment, to 
treat any captured regime combatants in accordance with the Geneva 
Conventions and, in one instance, returned eight regime fighters to 
Tripoli via the Red Crescent. In addition, the TNC has declared its 
willingness to forgive officials who defect from Qadhafi and work with 
members of the current regime in the future, provided that they were 
not involved in committing crimes against Libyans. The TNC has 
consistently emphasized its goal is to pave the way for a peaceful 
political transition that reflects the democratic aspirations of all 
Libyans.

    Question #10. What are civilian and military operations related to 
Libya currently costing the United States, and how much is the 
administration prepared to spend over time?

    Answer. The Department of State defers to the Department of Defense 
for answer to questions 1-6 and 10.

    Question #11. In the aftermath of the current civil war in Libya, 
what responsibility will the United States assume for reconstructing 
the country?

    Answer. Along with its partners, the United States has made 
significant contributions in Libya, addressing urgent humanitarian 
needs, providing assistance to the TNC and committing resources to 
support the civilian protection mission authorized by UNSCR 1973, 
including the no-fly zone. We continue to support the lead role of the 
United Nations in coordinating international efforts related to any 
political transition process in Libya. We will continue to review and 
assess ways in which we can help support the genuine democratic 
aspirations of the Libyan people, but will not do so alone. Our 
partners in the international community, including other countries, 
NGOs and, most importantly, the Libyan people themselves, will play a 
large role in these efforts.

    Question #12. The administration claims that Libyan oil resources 
will preclude the need for significant financial assistance in a post-
conflict period. I note that the committee was provided similar 
assurances prior to the conflict in Iraq. What assessments have the 
administration done on the state of the oil infrastructure? What is the 
likelihood that oil production and exports could resume in the context 
of continuing violence or insecurity in Libya in the post-Qadhafi 
period? Is Libya's oil infrastructure being degraded during the 
conflict?

    Answer. We are not aware of any assessments on the state of the oil 
infrastructure that have been performed since the beginning of 
Operation Odyssey Dawn. There has been one shipment of crude oil from 
the Transitional National Council (TNC) controlled Tubruq, however this 
shipment was from stocks of previously produced oil. We have seen 
reports that some of Libya's oil infrastructure has been damaged by the 
fighting, and the long-term effects of shutting in Libya's production 
as productive oil fields lie dormant would also need to be considered 
when resuming production. We are working to encourage the TNC to 
proceed with additional oil sales that would comply with current U.S. 
and U.N. sanctions, and we are in contact with oil companies regarding 
their business consideration in resuming business with Libya via the 
TNC.

    Question #13. Section 203(a)(1)(C) of the International Emergency 
Economic Powers Act provides that ``when the United States is engaged 
in armed hostilities or has been attacked by a foreign country or 
foreign nationals'' the President may ``confiscate any property, 
subject to the jurisdiction of the United States, of any foreign 
person, foreign organization, or foreign country that he determines has 
planned, authorized, aided, or engaged in such hostilities or attacks 
against the United States; and all right, title, and interest in any 
property so confiscated shall vest, when, as, and upon the terms 
directed by the President, in such agency or person as the President 
may designate from time to time . . .''

  <bullet> Does the administration believe this authority is presently 
        available to allow the President to vest blocked Libyan assets? 
        If not, why not?

    Answer. Unlike the general authorities in the International 
Emergency Economic Powers Act, the draft legislation is crafted to 
target this specific, unusual need and permits the use of vested assets 
only for humanitarian relief tied explicitly to the purposes of UNSC 
Resolutions 1970 and 1973. It is explicit as to the use of the funds: 
providing humanitarian relief to and for the benefit of the Libyan 
people.
    Further, in vesting the frozen assets, it is important that the 
Congress and the Executive stand together to demonstrate our commitment 
and send the clear message that these assets may not be used for other 
purposes, such as for costs of U.S. military operations or to pay 
claims against Libya. By comparison, IEEPA authorizes vested assets to 
be used broadly for the ``benefit of the United States,'' and relying 
on it could be seen as allowing for the use of vested assets beyond 
humanitarian relief purposes and therefore contrary to the objectives 
set out in UNSCRs 1970 and 1973 (which expressed the intention to 
ensure that frozen assets be made available to and for the benefit of 
the Libyan people). Therefore, vesting under IEEPA's less restricted 
authorities may very well attract criticism from other states as well 
as from the Libyan opposition, which has sought our assistance.
    The more limited legislative approach is preferred, not only 
because it would confirm Congress' partnership in this endeavor with 
the administration, but also because it would present to the public on 
the face of the legislation a more precisely focused rationale for such 
vesting that will better withstand any possible calls to expand the 
uses of the assets.

    Question #14. What precedents is the administration aware of for 
the vesting of blocked assets of foreign states other than in wartime 
or to satisfy claims of U.S. nationals?

    Answer. In 1954, the United States confiscated Czech steel mill 
equipment pursuant to the International Claims Act to pay U.S. claims 
against Czechoslovakia. In 2000, the United States vested certain 
blocked Cuban assets pursuant to the Victims of Trafficking and 
Violence Protection Act to pay judgments against Cuba. In 2003, the 
United States vested blocked Iraqi assets pursuant to the International 
Emergency Economic Powers Act to aid in the reconstruction effort, 
including by financing emergency repairs to critical infrastructure and 
paying Iraqi Government workers' salaries.

    Question #15. Why has the Administration sought authority to vest 
blocked Libyan assets, but not blocked assets of other countries 
against which the United States maintains sanctions programs? What 
unique considerations exist with regard to Libya that do not apply in 
other countries whose assets we have blocked, such as Iran, Syria, 
Burma, and Sudan?

    Answer. The United States is currently providing support to allies 
and partners engaged in protecting the people of Libya from violence 
perpetrated by the Qaddafi regime. The humanitarian situation on the 
ground is of grave concern and we believe that it is essential that 
humanitarian assistance be provided as soon as possible. The Libyan 
opposition, through a legitimate and credible Interim Council, has 
asked that blocked assets be made available for the benefit of people 
in Libya. As the President said on March 28, the blocked money 
``belongs to the Libyan people.'' Additionally, the United Nations 
Security Council (UNSC) Resolutions 1970 and 1973, which obligate 
Member States to freeze the assets of certain Libyan entities and 
individuals, authorize measures to be undertaken by Member States to 
protect civilians and civilian populated areas in Libya and affirm the 
intention to ensure that assets frozen pursuant to paragraph 17 of 
Resolution 1970 shall, at a later stage, as soon as possible be made 
available to and for the benefit of the Libyan people. We believe these 
are unique circumstances that do not have parallels in other sanctions 
situations such as those pertaining to Iran, Syria, Burma, or Sudan.

    Question #16. Were the President given the authority to vest some 
or all of the Libyan assets blocked by the United States, what portion 
of such assets does the administration envision vesting?

    Answer. The vesting authority we have proposed is limited to 
property of the Government of Libya and its related entities, including 
the Central Bank of Libya. Blocked assets include a broader range of 
properties in which Libya's interest may be more contingent or 
indirect.

    Question #17. Were the President given the authority to vest 
blocked assets for the purpose of benefiting the Libyan people, who 
would be responsible for making decisions about how such resources 
would be spent? What role would the Libyan Transitional National 
Council have in making any such decisions?

    Answer. The President would have the authority to decide precisely 
how the assets would be used, consistent with the legislation. The 
President might choose to delegate this authority. Some of the vested 
funds may be transferred to the Temporary Financing Mechanism (TFM) for 
humanitarian relief, when the TFM becomes fully operational. Under the 
Terms of Reference for the TFM approved by the Contact Group on May 5, 
the TFM's board would include members of the TNC and some donor 
countries, and would be designed to meet both the needs of the civilian 
population under the control of the TNC and to provide accountability 
for funds provided. We anticipate that any funds we use will be made 
available for purposes consistent with the TNC's goals.

    Question #18. Were the President given the authority to vest assets 
for the purpose of assisting the Libyan people, what mechanisms would 
be in place to ensure that funds were spent for the intended purposes 
and not wasted or diverted? Does the Administration plan to make vested 
assets available to the Libyan Transitional National Council, either 
directly or via the Temporary Financing Mechanism, as agreed by the 
Contact Group?

    Answer. The United States, working through international and 
nongovernmental partners, where appropriate, will use these funds to 
provide humanitarian aid to those in need. We will only disburse assets 
through partners that meet our legal and policy standards, including 
strong and transparent oversight of the disbursements. Some of the 
funds may be transferred to the Temporary Financial Mechanism (TFM) for 
humanitarian relief, when the TFM is fully operational. Under the Terms 
of Reference for the TFM approved by the Contract Group on May 5, the 
TFM's board would include members of the TNC and some donor countries 
and would be designed to meet both the needs of the civilian population 
under the control of the TNC and to provide accountability for the 
funds.

    Question #19. What assessment has the administration made of the 
resources required to meet the assistance needs of the Libyan 
opposition, and what other resources are available to the opposition 
for these purposes?

    Answer. Our envoy in Benghazi is in regular contact with members of 
the TNC and other groups as we deepen our engagement with the Libyan 
opposition. Based on these consultations, and discussions with members 
of the international community, we are developing a sense of the 
opposition's needs and priorities. The President has directed up to $25 
million in nonlethal military assistance to the TNC and we are 
reviewing other types of assistance that we might provide. During its 
May 5 meeting in Rome, the Libya Contact Group endorsed the creation of 
a Temporary Finance Mechanism (TFM) to facilitate financial 
contributions to the TNC, as well as the establishment of a Libya 
Information Exchange Mechanism (LIEM) to coordinate other types of 
assistance. Kuwait has already pledged $180 million to the TFM and we 
are strongly encouraging other countries to make similar contributions 
to the TNC through either or both of these mechanisms.

    Question #20. What financial resources have Arab League countries 
committed to assist the Libyan opposition?

    Answer. The Arab League was one of the first international bodies 
to denounce the violence in Libya and was vital in supporting the 
passage of UNSCR 1973. Since then, Arab League members have 
significantly assisted the opposition, through financial contributions, 
humanitarian assistance and the commitment of resources to NATO-led 
operations to implement a no-fly zone and protect civilians. For 
example, Kuwait has pledged $180 million to support the TNC through the 
Temporary Financial Mechanism and Egypt and Tunisia have worked with 
NGOs to provide humanitarian relief to those fleeing the violence 
Libya. At the same time, Qatar, the U.A.E. and Jordan have all 
contributed significant military assets to Operation Unified Protector. 
We expect that the Arab League will continue to be a key partner in 
Libya.

    Question #21. What outstanding claims is the administration aware 
of by U.S. nationals against the Government of Libya, and what is the 
value of such claims? What impact would vesting blocked Libyan assets 
for the purpose of assisting the Libyan opposition have on the 
interests of U.S. claimants?

    Answer. In 2008, the United States signed the U.S.-Libya Claims 
Settlement Agreement (``Agreement''), which provided for the ``full and 
final settlement'' of claims held by U.S. victims of terrorism against 
Libya in exchange for a lump sum payment of $1.5 billion. These 
included the Pan Am 103 and La Belle Disco bombing settlement claims, 
as well as claims of other American victims of terrorist incidents that 
occurred prior to June 30, 2006, for which Libya was responsible. In 
advance of the settlement, Congress passed the Libyan Claims Resolution 
Act (28 U.S.C. 1605A note), which provided that Libya would enjoy full 
immunity from litigation related to these claims in exchange for the 
lump sum payment. Pursuant to the Agreement, the President also issued 
Executive Order 13047, which provided for the termination of related 
litigation and espoused and settled those claims held by U.S. 
nationals. The State Department has used the $1.5 billion settlement 
amount to fully pay out the Pan Am 103 and LaBelle settlements, provide 
comparable compensation for the wrongful death claims of other U.S. 
victims of Libya-related terrorism, and finance a distribution program 
for other claims managed by the Justice Department's Foreign Claims 
Settlement Commission (``FCSC''). We are not aware of other claims of 
U.S. nationals against Libya falling outside the 2008 Agreement.
    This legislation would allow Government of Libya assets to be used 
to provide humanitarian assistance to Libyan civilians who are still 
suffering from Colonel Qadhafi's brutal military campaign. It would not 
affect the Agreement or the FCSC's ongoing work.
                                 ______
                                 

Responses of Deputy Secretary of State James B. Steinberg to Questions 
                     Submitted by Senator Mike Lee

    Question. Section 5(b) of The War Powers Act states: ``Within sixty 
calendar days after a report is submitted or is required to be 
submitted pursuant to section 4(a)(1), whichever is earlier, the 
President shall terminate any use of United States Armed Forces with 
respect to which such report was submitted (or required to be 
submitted), unless the Congress (1) has declared war or has enacted a 
specific authorization for such use of United States Armed Forces, (2) 
has extended by law such sixty-day period, or (3) is physically unable 
to meet as a result of an armed attack upon the United States.''
    As of May 17, 2011, United States military will have been involved 
in combat operations in Libya for 60 days. By that date, President 
Obama is required by statute to withdraw our forces from Libya OR ask 
Congress to give him a resolution authorizing the use of force.

  <bullet> Does President Obama plan to ask Congress for such a 
        resolution?
  <bullet> If not, please explain the administration's authority to 
        continue U.S. military participation in Libya.

    Answer. President Obama wrote to Congress on May 20, 2011, 
expressing his strong support for action in both Houses on S. Res. 194, 
the bipartisan resolution on United States military operations in Libya 
introduced by Senators McCain, Kerry, Lieberman, Levin, Feinstein, 
Graham, and Chambliss. While the administration has stated that U.S. 
military operations in Libya are consistent with the War Powers 
Resolution, the President also made clear in his letter that it has 
always been his view that ``it is better to take military action, even 
in limited actions such as this, with congressional engagement, 
consultation, and support.'' The resolution introduced fully captures 
the importance of congressional consultations by asking for an 
additional report to Congress about U.S. policy objectives in Libya and 
regular consultations on progress toward meeting them. Moreover, the 
resolution would present the wider world with a formal, unified 
position of the United States Government, help us continue to enlist 
the support of other countries in maintaining and expanding the 
coalition, and strengthen our ability to shape the course of events in 
Libya. As Members of Congress consider the resolution, the 
administration will continue to consult closely with them on any 
ongoing military operations.

    Question. On March 29, NATO Supreme Allied Commander, Admiral James 
Stavridis said that he did not have ``detail sufficient to say that 
there's a signifi-
cant al-Qaeda presence or any other terrorist presence in and among the 
Libyan opposition.''

  <bullet> Since that time, what additional information have you seen 
        to support the assertion that there is not a significant al-
        Qaeda or terrorist presence in the Libyan Interim Transitional 
        National Council (TNC)?

    Answer. Our envoy to Benghazi continues to meet with a broad 
spectrum of Libyans involved in the opposition writ large, including 
members of the Transitional National Council (TNC). Based on the TNC's 
statements, actions, and our engagement with them, we believe that the 
TNC is a legitimate and credible interlocutor for the Libyan people 
that is reaching out to the international community and expressing 
values and principles we share. For example, it has publicly rejected 
terrorism and extremist influences, committed to abide by the Geneva 
Conventions on the treatment of prisoners of war, and declared their 
respect for the human rights of all Libyans. Significantly, the TNC has 
also expressed its dedication to a peaceful transition to an inclusive, 
democratic government. In that regard, it has announced a roadmap that 
includes timelines for convening a national assembly and drafting a 
constitution after Qadhafi has left power.
    We understand that there is the potential that extremist groups 
could try to take advantage of the situation in Libya and we will 
continue to monitor this issue closely. On the other hand, the dangers 
of Qadhafi returning to terrorism and violent extremism also exist. Our 
challenge is to help the Libyan people navigate this transition in a 
way that preserves our strategic interest in preventing the spread of 
extremism and supports democratic values and human rights. Continued 
dialogue with the TNC is key to achieving this goal.

    Question. From March 19 through early April, pro-Qadhafi forces 
seemed to take a hit and opposition forces advanced westward. However, 
the opposition was unable to hold its gains and stalemate conditions 
have returned to at least the region near Ajdabiya.

  <bullet> Can Libyan TNC forces prevail against pro-Qadhafi forces 
        without an augmented participation of NATO?
  <bullet> Could NATO continue this mission without the participation 
        of the United States?

    Answer. Opposition forces have been making slow but significant 
progress in the west and near Misrata, and that progress will likely 
continue as various forms of pressure on the regime intensify. NATO 
will continue to execute its mission as per UNSCR 1973 and 1970.
    Without U.S. participation, it is unlikely that NATO could sustain 
the current operational tempo.

                                  <all>

</pre></body></html>
